No.

Supreme Court, U.S.
FILED

-IU

JUL 3 1 202?
OFFICE OF THE CLERK

IN THE SUPREME COURT OF THE UNITED STATES

MARK LEE WILLIAMS - PETITIONER
vs.
ARIZONA STATE BAR - RESPONDENT

ON PETITION FOR A WRIT OF CERTIORARI TO THE
ARIZONA SUPREME COURT

PETITION FOR A WRIT OF CERTIORARI

Mark Lee Williams, Esq. SBN 022096
LAW OFFICE OF MARK L. WILLIAMS
969 N. Grand Ave. #1
Nogales, AZ 85621
Tel: (520) 287-4500
Email: markwilliamsesq@vahoo.com
Pro Se Petitioner

RECEIVED
AUG - 2021

-garaasaar

QUESTIONS PRESENTED FOR REVIEW
1. Whether Petitioner was denied his right to notice and Due Process in
Arizona bar disciplinary proceedings?
2. Whether the Arizona Supreme Court and Respondent violated Petitioner’s
right to Due Process and notice of the charges by filing and using a bar
complaint which conflicts with relevant decisions of this Court?
3. Whether the Arizona Supreme Court and Respondent violated Petitioner’s
right to Due Process by ignoring the Respondent’s burden to file a
complaint that complies with Petitioner’s right to Due Process and
shifting that burden which conflicts with relevant decisions of this Court?
4. Whether the Arizona Supreme Court and the Hearing Panel violated
Petitioner’s right to notice and Due Process by finding 6 ER violations
based on statutes and rules not cited in the Respondent’s defective bar
complaint?
5. Whether the Arizona Supreme Court decided negatively what is required
of the contends of a bar complaint to satisfy an attorney’s right to notice
and Due Process which is an important issue that has not been, but
should be, settled by this Court?
6. Whether the Arizona Supreme Court decided negatively what is required
of the contents of a bar complaint to satisfy an attorney’s right to notice
and Due Process in a way that conflicts with the decisions of the
California Supreme Court and Oregon Supreme Court?

l

PARTIES TO THE PROCEEDING
The Pro Se Petitioner (Appellant below and Respondent in the bar
proceedings at issue below) is Mark Lee Williams, an attorney in
the State of Arizona, a citizen of the United States and the great State of
Arizona.
The Respondent (Appellee below and Plaintiff in the bar proceedings at issue
below) is the State Bar of Arizona.
LIST OF ALL PROCEEDINGS DIRECTLY RELATED
OFFICE OF THE PRESIDING DISCIPLINARY JUDGE Case No.: PDJ20199058, IN THE MATTER OF A MEMBER OF THE STATE BAR OF
ARIZONA, MARK LEE WILLIAMS, Bar No. 022096. Decision and Order
Imposing Sanctions FILED FEBRUARY 27, 2020.
SUPREME COURT OF ARIZONA Case No.: SB-20-0017-AP, In the Matter of
a Member of the State Bar of Arizona, MARK LEE WILLIAMS, Attorney No.
22096. AMENDED DECISION ORDER FILED 03/05/2021, ORDER denying
Motion for Reconsideration of March 5, 2021, Amended Decision Order
FILED 04/14/2021.

n

TABLE OF CONTENTS
Page
QUESTIONS PRESENTED FOR REVIEW

1

PARTIES TO THE PROCEEDING

11

LIST OF ALL PROCEEDINGS DIRECTLY RELATED

11

PETITION FOR A WRIT OF CERTIORARI

1

OPINIONS BELOW

1

JURISDICTION

1

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

1

INTRODUCTION

2

STATEMENT,

3

REASONS FOR GRANTING THE PETITION

8

I.

PETITIONER WAS DENIED HIS RIGHT TO NOTICE AND DUE
PROCESS IN ARIZONA BAR PROCEEDINGS................................

8

A. The Arizona Supreme Court and Respondent have violated Petitioner’s right
to Due Process and notice of the charges by filing and using a bar complaint
which conflicts with relevant decisions of this Court
8
B. The Arizona Supreme Court and Respondent have violated Petitioner’s right
to Due Process by ignoring the Respondent’s burden to file a complaint that
complies with Petitioner’s right to Due Process and shifting that burden
which conflicts with relevant decisions of this Court
16
C. The Arizona Supreme Court and the hearing panel have violated Petitioner’s
right to notice and Due Process by finding 6 ER violations based on statutes
20
and rules not cited in the Respondent’s defective bar complaint
II.

THE ARIZONA SUPREME COURT DECIDED NEGATIVELY WHAT
IS REQUIRED OF THE CONTENTS OF A BAR COMPLAINT TO
SATISFY AN ATTORNEYS RIGHT TO NOTICE AND DUE

in

PROCESS WHICH IS AN IMPORTANT ISSUE THAT HAS NOT
BEEN, BUT SHOULD BE, SETTLED BY THIS COURT...............
III.

23

THE ARIZONA SUPREME COURT DECIDED NEGATIVELY WHAT
IS REQUIRED OF THE CONTENTS OF A BAR COMPLAINT TO
SATISFY AN ATTORNEYS RIGHT TO NOTICE AND DUE
PROCESS IN A WAY THAT CONFLICTS WITH THE DECISIONS
OF THE CALIFORNIA SUPREME COURT AND OREGON
SUPREME COURT
27

CONCLUSION

32

TABLE OF AUTHORITIES
U.S. Constitution
Fifth Amendment

1, 2, 4, 9, 10, 15, 17, 18, 30, 31

Sixth Amendment

10

Fourteenth Amendment

1, 2, 4, 8, 9, 10, 15, 17, 18, 30, 31

Arizona Constitution
Article 2, Section 4

2

Cases
Baker v. State Bar,
49 Cal. 3d 804 (1989)

29

Cole v. Arkansas,
333 U.S. 196, 201 (1948)

32

Foster v. Illinois,
332 U.S. 134, 136 (1947)

10, 11

Gendron v. State Bar,
35 Cal.3d 409, 420-421 (1983)

22, 28

Guzetta v. State Bar,
43 Cal.3d 962 (1987)

28

IV

In Matter of Ruffalo,

390 U.S. 544, 550-551, 88 S.Ct. 1222, 1226, 20 L.Ed.2d 117 (1968)
10, 15, 17, 18, 30
In re Gault,
387 U.S. 1, 33, 87 S.Ct. 1428, 1446, 18 L.Ed.2d 527

10

In re Oliver,
333 U.S. 257, 273, 68 S.Ct. 499, 507, 92 L.Ed. 682

10

Konigsberg v. State Bar of California,
353 U.S. 252 (1957)....................

9

Maltaman v. State Bar,
43 Cal.3d 924 (1987)

28, 29

People v. Thomas,
43 Cal.3d 818, 823 (1987)

32

Pennoyer v. Neff,
95 U.S. 714, 95 U. S. 732-733 (1878)

15

Rose v. Clark,
478 U.S. 570, 577, 106 S.Ct. 3101, 92 L.Ed.2d 460 (1986)
Schware v. Board of Bar Examiners,
353 U.S. 232 (1957)..................

15

10, 15. 17, 18, 30

Speiser v. Randall,
357 U.S. 513, 357 U.S. 525 (1958)

16

United States v. Cruikshank,
92 U.S. 542, 558, 23 L.Ed. 588 (1875)

25

Woodard v. State Bar,
16 Cal.2d 755 (1940)

27, 28, 32

Statute:
28 U.S.C. §1257

1

Arizona Rules:
Ariz. R. Sup. Ct. 46

14

Ariz. R. Sup. Ct. 47(a)

17
v

Ariz. R. Sup. Ct. 47(b)

21

Ariz. R. Sup. Ct. 47(b)!

17

Ariz. R. Sup. Ct. 47(b)2

17, 21

Ariz. R. Sup. Ct. 48

14

Ariz. R. Sup. Ct. 48(a)

25

Ariz. R. Sup. Ct. 58

25

Ariz. R. Sup. Ct. 58(a)

14, 15, 16, 17, 24, 27, 30, 31

Ariz. R. Sup. Ct. 58(j)

15

Ariz. R. Sup. Ct. 72

6

Rules of Civil Appellate Procedure
Rule 13

20, 21, 22, 30

Rule of Family Law Procedure:
Rule 49

20, 21, 22, 30

Rule 76

20, 21, 22, 30

Arizona State Bar Case:
In the Matter of W. Michael Walz, (Case #SB-16-0050 filed 4/20/17

21

Rules of Procedure for the State Bar of California
Rule 5.41

2, 7, 8, 23, 27, 29, 31, 32

Bar Rules of the State of Oregon
Rule 4.1

2, 7, 23, 24, 30, 31, 32

Rule 13.1

2, 24, 30, 31, 32

vi

PETITION FOR A WRIT OF CERTIORARI
Mark Lee Williams (“Petitioner”) respectfully petitions for a writ of certiorari
to review the judgment (App. 2-5) in this case of the Arizona Supreme Court
OPINIONS BELOW
The Arizona Supreme Court entered judgment (Amended Decision Order) on
March 5, 2021 and is unpublished. (App.2-5). The court denied Petitioner’s motion
for reconsideration of March 5, 2021 Amended Decision Order on April 14, 2021 and
is unpublished. (App. 255-256). The Decision and Order Imposing Sanctions filed on
February 27, 2020 is unpublished. (App. 12-49).
JURISDICTION
The Arizona Supreme Court entered judgment (Amended Decision Order) on
March 5, 2021. (App.2-5). The court denied Petitioner’s motion for reconsideration of
March 5, 2021 Amended Decision Order on April 14, 2021. (App. 255-256). On
March 19, 2020 the U.S. Supreme Court issued administrative order which
extended by 150 days the deadline to file a petition for writ of certiorari due on or
after March 19, 2020. This Court has jurisdiction under 28 U.S.C. §1257.
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
Fifth Amendment to the U.S. Constitution provides in relevant part: “No
person shall... be deprived of life, liberty or property, without due process of law....”
Section 1 of the Fourteenth Amendment to the U.S. Constitution provides in
relevant part: “No state shall... deprive any person of hfe, liberty, or property without
due process of law....”

1

Article 2, Section 4 of the Arizona Constitution provides: “No person shall be
deprived of life, liberty, or property without due process of law.”
INTRODUCTION
Petitioner’s case raises a question of first impression that is of nationwide
importance: What must a bar disciplinary complaint contain in order to
satisfy an attorney's right to notice and Due Process? This particular issue has
never been interpreted by this Court. States such as California (with its Rule 5.41,
Rules of Procedure of the State Bar of California) and Oregon (with its Rule 4.1 and
Rule 13.1, Rules of Procedure) have already answered this question.
This case has broad legal significance for lawyers in bar disciplinary
proceedings across the United States and addresses attorneys’ rights to Due Process
in bar disciplinary proceedings.
The present case involving Pro Se Petitioner attorney Mark Lee Williams
represents a regrettable example of how an attorney in bar proceedings can have
his rights to notice and Due Process guaranteed by the 5th and 14th Amendments to
the U.S. Constitution violated by a constitutionally defective bar complaint (App.
50-56) that failed to give fair notice of the conduct that allegedly constituted a
violation of each of the 6 Ethical Rules (ER) and failed to cite the alleged
rules/statutes that were violated, and by disciplinary proceedings that were not
conducted according to Federal (Due Process) and Arizona law.
Sadly, the record and the decisions below demonstrate that, the Arizona
Supreme Court and the disciplinary Hearing Panel (which is comprised of 3 people

2

of which is the Presiding Disciplinary Judge) (hereinafter “PDJ”) abused their
discretion and reached clearly erroneous decisions in violation of Petitioner’s right
to Due Process that resulted in them finding 6 ER violations resulting in a 30-day
suspension from the practice of law, 2 years of probation, a fine the amount of
$4,704.63 with interest, notification to the public, and other sanctions.
A review of the record and decisions below will make it clear to this Court
that the March 5, 2021 Amended Decision Order (App. 2-5) and March 3, 2021
Decision Order (App. 6-9) of the Arizona Supreme Court and the Decision and Order
Imposing Sanctions (App. 12-49) of the PDJ should all be set aside and vacated and
the constitutionally defective bar complaint (App. 50-56) dismissed with prejudice.
The judgment (App. 2-5) of the Arizona Supreme Court will have wide
ranging and destructive effects for attorneys in bar disciplinary proceedings in
Arizona.
This Court should be persuaded by California’s and Oregon’s interpretation of
their rules of procedure concerning the contents of their bar disciplinary complaints.
The wording that California and Oregon have adopted that is contained in their
rules of procedure to guarantee Due Process to attorneys, is significantly different
and justifies this Court following California’s and Oregon’s interpretation of the Due
Process requirements.
STATEMENT
Respondent commenced disciplinary proceedings against Petitioner by filing
a constitutionally defective bar complaint (App. 50-56) on August 20, 2019 that

3

failed to give Petitioner fair notice of the charges and deprived Petitioner of his
federal right to Due Process guaranteed by the 5th and 14th Amendments to the U.S.
Constitution.
The Respondent’s constitutionally defective bar complaint is at App. 50-56.
Petitioner filed his response to the constitutionally defective bar complaint
App. 72-77.
An Initial Case Management Conference was held on October 2, 2019 and the
Order from that Conference set a motions deadline of November 1, 2019 and a
Hearing [trial (hereinafter “Hearing”)] date of December 2, 2019.
On November 25, 2019, Petitioner filed and served his Separate Prehearing
Memorandum which identified to the Hearing Panel and Respondent the specific
constitutional defects in the complaint and for each of the 6 alleged ER violations.
(App. 78-87)
An expedited hearing conference was held on November 27, 2019 and the
Order from that conference set the motions deadline for December 6, 2019 and reset
the Hearing on the matter, to January 15, 2020.
Respondent failed to file a motion to amend the constitutionally defective
complaint by the December 6, 2020 motion’s deadline.
A Hearing was held on January 15, 2020. Respondent failed to seek an
amendment to the constitutionally defective complaint before or at the Hearing and
failed to seek an amendment to the pleadings.

4

At the beginning of the January 15, 2020 Hearing Petitioner made an oral
motion to dismiss the defective complaint but the PDJ would not consider it nor
allow Petitioner to make a record:
“And before I making my opening comment, I had a preliminary motion that I
was hoping to run by you that concerns this action. ... I would call it a Motion
to Dismiss some or all of the allegation in the Complaint. If I could be heard
on that?
PRESIDING DISCIPLINARY JUDGE: You’re too late for that. We’re at the
hearing.
MR. WILLIAMS: Could I make an offer of proof for the record?
PRESIDING DISCIPLINARY JUDGE: Nope.” (App. 94 lines 20-25 to App. 95
lines 1-4)
At the conclusion of the January 15, 2020 Hearing Petitioner argued in his
closing argument regarding the failure to provide notice and Due Process to
Petitioner.
On February 27, 2020 the Hearing Panel issued its Decision finding 6 ER
violations (many based on rules not cited in the complaint) and imposing a suspension
of 6 months and 1 day along with other sanctions App 12-49.
Petitioner timely made his appeal to the Arizona Supreme Court on March 9,
2020 from the Hearing Panel’s Decision App. 88-89.
On March 17, 2020 the PDJ granted Petitioner’s request for a stay with
conditions of supervision while the matter proceeded to the Arizona Supreme Court on
appeal. (App. 10-11).
Petitioner timely filed his transcript of the and January 15, 2020 Hearing
select portions of which are at App. 90-101.
Ill III

5

Petitioner filed October 8, 2020 his Opening Brief with the Arizona Supreme
Court at App. 102-143 and raised the violations of his right to Due Process on pages
App. 103, 105, 109, 111, and 113-120.
Petitioner on December 9, 2020 filed his Reply Brief at App. 144-173 with the
Arizona Supreme Court and raised the violations of his right to Due Process on
pages App.145, 146, 149-151, 155, 157, 158, 162, and 166-171.
On March 3, 2021 the Arizona Supreme Court issued its Decision Order (App.
6-9).
On March 5, 2021 the Arizona Supreme Court issued its Amended Decision
Order (App. 2-5) which rejected Petitioner’s Due Process arguments stating:
“First, Respondent [Petitioner] argues that he was denied due process in the
discipline proceedings because the complaint failed to give fair notice of the
conduct and charges...
On these facts, Respondent [Petitioner] has not demonstrated that he was
denied fair notice of the charges.
The allegations in the Complaint are straightforward and, except for the ER
1.4 charge, it is clear which facts relate to which charged ethical rule.” (App.
2).
The Arizona Supreme Court granted Petitioner’s Appeal and in the process
reduced the suspension from 6 months and a day to 30 days effective 30 days from
March 5, 2020, ordered 2 years of probation, ordered compliance with Rule 72,
Arizona Rules of Supreme Court (which required in pertinent part for Petitioner to
withdraw from his then current cases and notify his clients, opposing counsel, and
the courts of his suspension within 10 business days of March 5, 2021 and ordered
costs to be paid by Petitioner. (App. 4-5).

6

Respondent filed its Statement of Costs and Expenses (App. 193) and its
Statement of Costs and Expenses seeking $4,704.63. (App. 194).
Petitioner filed his Objections to the Statement of Costs and Expenses. (App.
195-204).
Respondent filed its Response to Objections to Statement of Costs and
Expenses. (App. 205-211).
The Arizona Supreme Court issued its Order dated March 30, 2021 denying
Petitioner’s objections and awarding Respondent judgment in the amount of
$4,704.63 together with interest. (App. 212-213).
Petitioner filed his Motion for Reconsideration of March 5, 2021 Amended
Decision Order with the Arizona Supreme Court. (App. 214-254) and raised the
issue that to satisfy an attorney’s right to Due Process in bar disciplinary hearings a
bar complaint in California must comply with “Rule 5.41, of the Rules of Procedure
of the State Bar of California and in Oregon a bar complaint must comply with Bar
Rule 4.1. which both provide Due Process while Arizona does not.
On April 14, 2021 the Arizona Supreme Court issued an order (App. 255-256)
denying Petitioner’s Motion for Reconsideration of March 5, 2021 Amended Decision
Order stating: “Upon consideration of Respondent’s [Petitioner’s] “Motion for
Reconsideration of March 5, 2021 Amended Decision Order,” IT IS ORDERED
denying the motion.” (App. 255).
Ill III
III III

7

REASONS FOR GRANTING THE PETITION
This Court’s review is warranted because the decision of the Arizona
Supreme Court deprived Petitioner of his right to notice and Due Process in his bar
disciplinary proceedings. The Arizona Supreme Court has effectively decided that
allegations of misconduct in a bar complaint are not required to be related nor
connected to the ethical rules allegedly violated to satisfy an attorney’s right to
notice and Due Process and this question has not been, but should be, settled by
this Court. This Court should review the March 5, 2021 Amended Decision Order of
the Arizona Supreme Court, and set aside that decision.
This Court should address the express split between California and Oregon
on the one hand, and Arizona on the other, regarding what contents must a state’s
bar complaint have in order to comply with an attorney’s right to notice and Due
Process in bar disciplinary proceedings and resolve that question in favor of
applying Rule 5.41, of the Rules of Procedure of the State Bar of California.
I.

PETITIONER WAS DENIED HIS RIGHT TO NOTICE AND DUE
PROCESS IN ARIZONA BAR PROCEEDINGS

A. The Arizona Supreme Court and Respondent have violated
Petitioner’s right to Due Process and notice of the charges by filing
and using a bar complaint which conflicts with relevant decisions of
this Court.
An attorney is guaranteed a right to Due Process in bar disciplinary
proceedings.
The 14th Amendment to the U.S. Constitution states:
“Section 1.

8

... nor shall any state deprive any person of life, liberty, or property,
without due process of law: nor deny to any person within its jurisdiction
the equal protection of the laws.” [Emphasis added]
The 5th Amendment to the U.S. Constitution states:
“No person shall... be deprived of life, liberty, or property, without
due process of law ... .” [Emphasis added]
In the case of Konigsberg v. State Bar of California, 353 U.S. 252 (1957) this
Court found a violation of Due Process in violation of the Fourteenth Amendment
and stated:
“While this is not a criminal case, its consequences for Konigsberg take it out
of the ordinary run of civil cases. The Committee’s action prevents him from
earning a living by practicing law. This deprivation has grave consequences
for a man who has spent years of study and a great deal of money in
preparing to be a lawyer.” Id. at 257-258.
As in Konigsberg, Petitioner’s bar case is not a criminal case; however, the
consequences take the case out of the ordinary run of civil cases. The March 5, 2021
Amended Decision Order of the Arizona Supreme Court (App. 2-5) prevented
Petitioner from earning a living by practicing law for thirty days commencing April
5, 2021, placed Petitioner on 2 years of probation, and fined Petitioner over
$4,704.63 with interest, and is reporting this negative information against Petitioner in the
Arizona State bar’s website. This deprivation has grave consequences for Petitioner, a
man who has spent many years of study, 17 years in the practice of law, and a great
deal of money preparing for and being a lawyer.
The March 5, 2021 Amended Decision Order of the Arizona Supreme Court
(App. 2-5) and Decision of the Hearing Panel (App. 12-49) should be vacated and the
constitutionally defective bar complaint (App: 50-50)dismissed wit-h~prnju4ice
9

because the decisions and defective bar complaint violated Petitioner’s right to Fair
Notice/Due Process guaranteed by the 5th and 14th Amendments to the U.S.
Constitution and contradict this Court’s holdings in Schware v. Board of Bar
Examiners, 353 U.S. 232 (1957) and Matter of Ruffalo, 390 U.S. 544, 550-551, 88
S.Ct. 1222, 1226, 20 L.Ed.2d 117 (1968).
This Court held in the case of Schware v. Board of Bar Examiners, 353 U.S.
232 (1957):
“A State cannot exclude a person from the practice of law or from any other
occupation in a manner or for reasons that contravene the Due Process or
Equal Protection Clause of the Fourteenth Amendment.” Id. at 238-239.
In Matter of Ruffalo, 390 U.S. 544, 550-551, 88 S.Ct. 1222, 1226, 20 L.Ed.2d
117 (1968), this Court held that an attorney charged with unethical conduct is
entitled to procedural due process which includes, but is not limited to, fair notice
of the charge before the proceedings commence:
“He is accordingly entitled to procedural due process, which includes fair
notice of the charge. See In re Oliver, 333 U.S. 257, 273, 68 S.Ct. 499, 507, 92
L.Ed. 682....
These are adversary proceedings of a quasi-criminal nature. Cf. In re
Gault, 387 U.S. 1, 33, 87 S.Ct. 1428, 1446, 18 L.Ed.2d 527. The charge must
be known before the proceedings commence.” [Emphasis added]
This Court held that quasi-criminal proceedings, like attorney discipline
trigger procedural due process because attorneys have a property interest in their
licenses to practice law, procedural due process is more than just a hearing and “it
is not satisfied by merely formal procedural correctness, nor is it confined by an
absolute rule such as that which the Sixth Amendment contains in securing to an

10

accused the assistance of counsel for his defense.” Foster v. Illinois, 332 U.S. 134,
136 (1947).
The Respondent’s bar complaint is at App. 50-56 and violates Petitioner’s
right to Notice and Due Process because the complaint contains a total of 13
paragraphs, the first 12 paragraphs contain 25 sentences which make up the
factual allegations of misconduct and none of those sentences nor the first 12
paragraphs are related nor connected to any of the 6 ethical rules (ER 1.1, ER 1.3,
ER 1.4, ER 3.1, ER 3.4(c), nor ER 8.4(d)) listed in paragraph 13. Respondent’s
paragraph 13 merely states: “Respondent’s conduct [stated in the first 25 sentences
in paragraphs 1-12] violated ERs 1.1, 1.3, 1.4, 3.1, 3.4(c), and 8.4(d).” (App. 53).
Which and how many of the first 12 paragraphs and/or 25 sentences were
alleged to have violated ER 1.1? ER 1.3? ER 1.4? ER 3.1? ER 3.4(c)? ER 8.4(d)?
The defective complaint’s complete failure to give Petitioner the required
procedural Due Process with fair notice is especially damaging with respect to ER
1.4 (App. 61-63) because it has 3 sections (a-c) and 1 section (a) has 5 subsections (15): the defective Complaint failed to give Petitioner fair notice of which section and
or subsection of ER 1.4 he allegedly violated (App. 53.)
The defective Complaint failed to give Petitioner fair notice of the alleged
conduct that was “prejudicial to the administration of justice” which ER 8.4(d)
proscribes. (App. 68).
Ill III
III III

11

Like charges in a criminal complaint, each of the 6 ERs (ER 1.1, ER 1.3, ER
1.4, ER 3.1, ER 3.4(c), nor ER 8.4(d)) in paragraph 13 contain different and distinct
elements.
ER 1.1. Competence states:
“A lawyer shall provide competent representation to a client. Competent
representation requires the legal knowledge, skill, thoroughness and
preparation reasonably necessary for the representation.” (App. 57-58).
Which of the 25 sentences of allegations contained in the first 12 paragraphs
of the defective complaint give notice to Petitioner as to how he is alleged to have
violated ER 1.1? The answer is none. Respondent failed to give notice to
Petitioner.
ER 1.3. Diligence states:
“A lawyer shall act with reasonable diligence and promptness in representing
a client.” (App. 59-60).
Which of the 25 sentences of allegations contained in the first 12 paragraphs
of the defective complaint give notice to Petitioner as to how he is alleged to have
violated ER 1.3? The answer is none. Respondent failed to give notice to
Petitioner.
ER 1.4. Communication states:
“(a) A lawyer shall:
(1) promptly inform the client of any decision or circumstance with
respect to which the client's informed consent, as defined in ER 1.0(e),
is required by these Rules;
(2) reasonably consult with the client about the means by which the
client's objectives are to be accomplished;
(3) keep the client reasonably informed about the status of the matter;
(4) promptly comply with reasonable requests for information; and

12

(5) consult with the client about any relevant limitation on the lawyer's
conduct when the lawyer knows that the client expects assistance not
permitted by the Rules of Professional Conduct or other law.
(b) A lawyer shall explain a matter to the extent reasonably necessary to
permit the client to make informed decisions regarding
the representation.
(c) In a criminal case, a lawyer shall promptly inform a client of all proffered
plea agreements.” (App. 61-63).
Which paragraph of ER 1.4 did Petitioner allegedly violate? Was it paragraph
(a)? (a)(1)? (a)(2)? (a)(3)? (a)(4)? (a)(5)? (b)? (c)? Respondent failed to identify the
section.
Which of the 25 sentences of allegations contained in the first 12 paragraphs
of the defective complaint give notice to Petitioner as to how he is alleged to have
violated ER 1.4? The answer is none. Respondent failed to give notice to
Petitioner.
ER 3.1. Meritorious Claims and Contentions states:
“A lawyer shall not bring or defend a proceeding, or assert or controvert an
issue therein, unless there is a good faith basis in law and fact for doing so
that is not frivolous, which may include a good faith and nonfrivolous
argument for an extension, modification or reversal of existing law. A lawyer
for the defendant in a criminal proceeding, or the respondent in a proceeding
that could result in incarceration, may nevertheless so defend the proceeding
as to require that every element of the case be
established.” (App. 64-65).
Which of the 25 sentences of allegations contained in the first 12 paragraphs
of the defective complaint give notice to Petitioner as to how he is alleged to have
violated ER 3.1? The answer is none. Respondent failed to give notice to
Petitioner.
Ill III

13

ER 3.4. Fairness to Opposing Party and Counsel states:
“A lawyer shall not:...
(c) knowingly disobey an obligation under the rules of a tribunal
except for an open refusal based on an assertion that no valid
obligation exists...” (App. 66-67).
Which of the 25 sentences of allegations contained in the first 12 paragraphs
of the defective complaint give notice to Petitioner as to how he is alleged to have
violated ER 3.4? The answer is none. Respondent failed to give notice to
Petitioner.
ER 8.4. Misconduct states:
“It is professional misconduct for a lawyer to:...
(d) engage in conduct that is prejudicial to the administration of justice...”
(App. 68-71).
Which of the 25 sentences of allegations contained in the first 12 paragraphs
of the defective complaint give notice to Petitioner as to how he is alleged to have
violated ER 8.4? The answer is none. Respondent failed to give notice to
Petitioner.
Rule 46, Arizona Rules of Supreme Court (“Ariz. R. Sup. Ct”) gives the
following definition:
“7. “Complaint” means a formal complaint prepared and filed with the
disciplinary clerk pursuant to these rules.” (Emphasis added.)
Rule 48, Ariz. R. Sup. Ct. states:
“(d) Standard of Proof. Allegations in a complaint.... shall be established
by clear and convincing evidence.” (Emphasis added.)
The Respondent’s defective complaint also violated Rule 58(a), Ariz. R. Sup.
Ct. which states:
14

“Complaint. Formal discipline proceedings shall be instituted by bar
counsel filing a complaint... with the disciplinary clerk. The complaint
shall be sufficiently clear and specific to inform a respondent of the
alleged misconduct.” (Emphasis added.)
Rule 58(j), Ariz. R. Sup. Ct. states in relevant part:
“3. Procedure. The state bar shall prove the allegations contained in the
complaint by clear and convincing evidence.” (Emphasis added.)
The prejudice at the January 15, 2020 Hearing was so great to Petitioner by
being deprived of notice of the charges and having his right to Due Process denied
that the evidence presented at the Hearing (presented in violation of Petitioner’s
right to Fair Notice/Due Process) should have been disregarded. The presumption of
prejudice is rooted in the principle that “some constitutional errors require reversal
without regard to the evidence in the particular case.” Rose v. Clark, 478 U.S. 570,
577, 106 S.Ct. 3101, 92 L.Ed.2d 460 (1986).
The Amended Decision Order (App. 2-5) and Decision Order (App. 6-9) of the
Arizona Supreme Court and the Decision and Order Imposing Sanctions of the
Hearing Panel (App. 12-49) should be vacated and the bar complaint dismissed with
prejudice and Petitioner’s payment of the judgment refunded because a judgment
rendered in violation of due process is void in the rendering State and is not entitled
to full faith and credit elsewhere. Pennoyer v. Neff, 95 U.S. 714, 95 U. S. 732-733
(1878).
Respondent’s constitutionally defective bar complaint violated Petitioner’s
right to Due Process guaranteed by the 5th and 14th Amendments to the U.S.
Constitution, and this Court’s decisions in Ruffalo and Schware by failing to give

15

Petitioner notice of the of the conduct that allegedly violated each of the 6 alleged
ER violations and these violations require that the Amended Decision Order (App.
2-5) and Decision Order (App. 6-9) of the Arizona Supreme Court and the decision
and order imposing sanctions of the hearing panel (App. 12-49) be vacated and
dismissed, and the constitutionally defective bar complaint (App. 50-56) dismissed
with prejudice and Petitioner’s payment of the judgment refunded.
B. The Arizona Supreme Court and Respondent have violated
Petitioner’s right to Due Process by ignoring the Respondent’s
burden to file a complaint that complies with Petitioner’s right to
Due Process and shifting that burden which conflicts with relevant
decisions of this Court.
This Court stated in the case of Speiser v. Randall, 357 U.S. 513, 357 U. S.
525 (1958): "it is plain that where the burden of proof lies may be decisive of the
outcome."
Similarly, the party who bore the burden to file a bar Complaint that met the
requirements of Fair Notice/Due Process to Petitioner and that was “sufficiently
clear and specific to inform a respondent of the alleged misconduct” is decisive of the
outcome of the case at hand.
Rule 58(a), Ariz. R. Sup. Ct. identifies very clearly which party bears the
burden of filing a complaint that gives notice:
“Complaint. Formal discipline proceedings shall be instituted by bar
counsel filing a complaint... with the disciplinary clerk. The complaint
shall be sufficiently clear and specific to inform a respondent of the
alleged misconduct.” (Emphasis added.)
It is not Petitioner’s obligation but rather Respondent’s obligation and duty to
file a complainrwhich'complies with-the requirements of-the-rules-and-notice
16

requirement guaranteed by Ruffalo and Schware and by the Due Process clause
contained in the 5th and 14th Amendments to the U.S. Constitution and Rule 58(a),
Ariz. R. Sup. Ct.
Respondent cannot dispense with, ignore, waive, circumvent, transfer,
redirect, assign, delegate, nor shift its duty to file a complaint that gives fair
notice as required by the 5th and 14th Amendments to the U.S. Constitution and by
this Court’s decisions in Ruffalo and Schware and its failure to do so must have
legal consequences, such as dismissal with prejudice. Respondent’s duty existed
from the filing of its complaint through the January 15, 2020 Hearing and did not
evaporate nor dissipate.
Respondent never sought to amend its constitutionally defective complaint
and ignored the December 6, 2019 motion’s deadline. The Respondent could have
easily filed a motion to amend its complaint to correct its numerous defects but
failed and chose not to do so. See Rule 47(a) and (b)2, Ariz. R. Sup. Ct. There was no
express nor implied consent of the parties to have issues tried that were not raised
by the pleadings. Rule 47(b)l, Ariz. R. Sup. Ct.
All of the authority cited above shows that only the Respondent is
authorized make allegations in a complaint or amended complaint if a motion to
amend is granted. The Arizona Rules of Supreme Court do not authorize nor allow
the Respondent to make allegations in any other pleading other than in a complaint
or amended complaint.
Ill III

17

Respondent’s constitutionally defective complaint did not give Petitioner the
Fair Notice/Due Process required by the Due Process Clause of the 5th and 14th
Amendments to the U.S. Constitution nor this Court’s decisions in Ruffalo and
Schware.
Respondent has no excuse for its failures. On November 25, 2019 (almost 2
months before the January 15, 2020 Hearing took place), Petitioner gave the
Hearing Panel, the PDJ, and Respondent notice of the Respondent’s constitutionally
defective bar complaint when he filed and served his Separate Prehearing
Memorandum (App. 78-87):
“Every hearing panel addresses the specific allegations within the complaint.
It is that pleading that gives fair notice (which is lacking in this case and will
be addressed at the start of the hearing) of the basis of the claim. The State
Bar must prove each of its allegations. It is bound by its pleadings and is
entitled to no greater or different relief than arise from those allegations. ...
ER 1.1...
The State Bar did not state which of its allegations apply to ER 1.1. ...
ER 1.3...
The State Bar did not state which of its allegations apply to ER 1.3. ...
ER 1.4...
The State Bar did not identify which section nor subsection of ER 1.4 that
was allegedly violated.
The State Bar did not state which of its allegations apply to ER 1.4, its
sections, nor sub-sections. ...
ER 3.1...
The State Bar did not state which of its allegations apply to ER 3.1. ...
ER 3.4(c)...
The State Bar did not state which of its allegations apply to ER 3.4(c). ...
ER 8.4(d)...
The State Bar did not state which of its allegations apply to ER 8.4(d) nor
which other ethical rule forms the basis for the alleged violation of ER8.4(d).”
(App. 78-87)
At the beginning of the January 15, 2020 Hearing Petitioner made an oral
'motiorTto dismiss the defective complaint:
18

“And before I making my opening comment, I had a preliminary motion that I
was hoping to run by you that concerns this action. ... I would call it a Motion
to Dismiss some or all of the allegation in the Complaint. If I could be heard
on that?
PRESIDING DISCIPLINARY JUDGE: You’re too late for that. We’re at the
hearing.
MR. WILLIAMS: Could I make an offer of proof for the record?
PRESIDING DISCIPLINARY JUDGE: Nope.” (App. 94 lines 20-25 to App. 95
lines 1-4)
The PDJ abused his discretion in not allowing Petitioner to make his motion,
not granting it, and in not allowing him to make a record.
At the conclusion of the January 15, 2020 Hearing Petitioner argued in his
/

closing argument:
“Your Honor, it - the allegations in the Complaint are supposed to be
established by clear and convincing evidence. My argument is that the State
Bar has failed to do that. (App. 96 lines 4-5.)
“Your Honor, the allegations in the Complaint - there’s - there’s a number of
them, I think 13 or so in this Complaint. They specifically don’t say what what rules are - are — Ethical Rules are being violated. It — it’s just kind of
like a - there’ll all thrown together without specifically saying in the
Complaint which allegation refers to which Etherical Rule violation.” (App.
97 lines 16-22.)
“With respect to ER 1.4.... The State Bar failed to identify which subsection
in its Complaint it’s referring to or - or—or which allegation applies to the
one that they want to - they—they want to allege has been violated.” (App.
98 lines 14-21.)
“With respect to the State Bar’s allegation in 3.4 - ER 3.4(c).... Again, I point
out in the Complaint it doesn’t state which allegation is - supports this—this
violation. I submit that the State Bar has - has not - has not established a
violation by clear and convincing evidence of this ER.” (App. 99 lines 24-25 to
App. 100 lines 1-8.)
“With respect to, Your Honor, ER8.4(d),... Again, the same point, the
allegation in the Complaint doesn’t state which specific allegation applies to
this particular alleged rule violation.” (App. 100 lines 11-15.)

19

The PDJ abused his discretion in not dismissing the complaint after oral
argument.
The Arizona Supreme Court in its order (App. 2) stated: “Respondent
[Petitioner] does not allege that he was unaware of the specific charge and did not
file a motion challenging the sufficiency of the Complaint.”
That court’s statement overlooks and ignores the fact that Petitioner gave
notice to Respondent and the Hearing Panel almost 2 months before the Hearing of
the matter of the specific defects in the Respondent’s complaint and it was
Respondent’s duty and obligation to file a complaint that complied with
Petitioner’s right to Due Process and notice and Respondent failed to do so..
C. The Arizona Supreme Court and the hearing panel have violated
Petitioner’s right to notice and Due Process by finding 6 ER
violations based on statutes and rules not cited in the Respondent’s
defective bar complaint.
The Hearing Panel found a violation of ER1.4(a)(3), 1.4(a)(4), and 1.4(b)
stating:
“Mr. Williams violated ER 1.4(b) and (a)(4)...
The Panel also finds that Mr. Williams violated ERl.4(a)(3) by failing to
timely provide Client with information regarding the Court of Appeals
decision.” (App. 30).
The defective bar complaint (App. 30) failed to cite ERl.4(b), ERl.4(a)(4),
and ERl.4(a)(3).
The Hearing Panel found a violation of ER 3.4(c) stating:
“Mr. Williams failed to comply with Rule 49 and Rule 76 FLRP [(App. 35)]...
The Panel finds that Mr. Williams knowingly violated Rule 49 and ARCAP 13
and therefore violated ER 3.4(c).” (App. 36).

20

The defective bar complaint (App. 50-56.) failed to cite Rule 49 and Rule 76
of the Arizona Rules of Family Law Procedure, and Arizona Rules of Civil
Appellate Procedure, Rule 13.
The Hearing Panel found a violation of ER 8.4(d) stating “Mr. Williams failed
to comply with Rule 49 and Rule 76 FLRP.” (App. 37).
The defective bar complaint (App. 50-56) failed to cite Rule 49 and Rule 76 of
the Arizona Rules of Family Law Procedure.
The Amended Decision of the Arizona Supreme Court at page 2 (App. 3) held:
“Accordingly, the Court accepts the panel’s findings that Respondent’s
conduct violated ERs 1.1. 1.3, 1.4(a)(3), 3.1, 3.4(c), and 8.4(d).”
The Arizona Supreme Court should not have imposed discipline for rule
violations that were not cited in the defective bar complaint. (App. 50-56).
Rule violations not cited in the defective bar complaint should not be relied
upon as a basis for discipline.
The Arizona Supreme Court has ruled in the case of In the Matter of W.
Michael Walz, (Case #SB-16-0050 filed 4/20/17 at Page 3) that the Hearing Panel
and the PDJ are not permitted to initiate the amendment of a complaint:
“Similarly, Rule 47(b)(2) relates specifically to pre-hearing amendments
and permits bar counsel to amend the complaint. It too does not permit
the panel or PDJ to initiate an amendment of the complaint. Reserving
the right to seek amendment of the pleadings to the parties is appropriate
because the hearing panel acts as the objective, independent trier of fact
and should not be assuming the role of prosecutor and deciding what charges
to bring. Rule 47(b) does not authorize the panel to amend the pleadings sua
sponte.” [Emphasis added].
Ill III

21

The Hearing Panel and PDJ were stuck with a constitutionally defective bar
complaint that failed to cite nor specify a violation of ER1.4(b), ER 1.4(a)(4),
ER1.4(a)(3), Rule 49 and Rule 76, Arizona Rules of Family Law Procedure
and Arizona Rules of Civil Appellate Procedure, Rule 13 and failed to relate
the alleged facts to the rules allegedly violated and they were powerless to amend it.
As in Gendron v. State Bar, 35 Cal.3d 409, 420-421 (1983), since leave to
amend was never asked for nor granted, only the charges contained in the
complaint may have been considered.
The parties filed their “Joint Pre-Hearing Statement” (the parties’ pretrial
statement) on November 8, 2019 and the State Bar failed to cite ER1.4(b),
ER1.4(a)(4), ER1.4(a)(3), Rule 49 and Rule 76, Arizona Rules of Family Law
Procedure and Arizona Rules of Civil Appellate Procedure, Rule 13 as
contested issues of law deemed material by it:
“V. CONTESTED ISSUES OF LAW DEEMED MATERIAL BY THE
STATE BAR
1. Whether Respondent violated ER 1.1,Rule 42, Ariz. R. Sup. Ct.
2. Whether Respondent violated ER 1.3,Rule 42, Ariz. R. Sup. Ct.
3. Whether Respondent violated ER 1.4,Rule 42, Ariz. R. Sup. Ct.
4. Whether Respondent violated ER 3.1,Rule 42, Ariz. R. Sup. Ct.
5. Whether Respondent violated ER 3.4(c), Rule 42, Ariz. R. Sup. Ct.
6. Whether Respondent violated ER 8.4(d), Rule 42, Ariz. R. Sup. Ct.”
On January 3, 2020 (1 week before the Hearing) the parties filed an
“Amended Joint Pre-Hearing Statement” (an Amended Pretrial Statement) and the
State Bar did not change its “Contested Issues of Law Deemed Material by
the State Bar” filed on November 18, 2019.
Ill III
22

It was a violation of Petitioner’s right to notice and Due Process for the
Arizona Supreme Court to find ER violations based upon rules not cited in the
defective bar complaint
II.

THE ARIZONA SUPREME COURT DECIDED NEGATIVELY
WHAT IS REQUIRED OF THE CONTENTS OF A BAR
COMPLAINT TO SATISFY AN ATTORNEY’S RIGHT TO
NOTICE AND DUE PROCESS WHICH IS AN IMPORTANT
ISSUE THAT HAS NOT BEEN, BUT SHOULD BE, SETTLED BY
THIS COURT.

This Court, as far as Petitioner has been able to investigate, has never
decided what a state’s bar complaint must contain to satisfy an attorney’s right to
Notice and Due Process in bar disciplinary proceedings:
California and Oregon satisfy an attorney’s right to Notice and Due Process
in bar disciplinary proceedings.
Rule 5.41, of the Rules of Procedure of the State Bar of California is entitled
“Notice of Disciplinary Charges” and states in pertinent part:
“(A) Initial Pleading. A notice of disciplinary charges is the initial pleading
in a disciplinary proceeding, unless specified otherwise in the rules.
(B) Contents. The notice of disciplinary charges must:
cite the statutes, rules, or Court orders that the attorney
(1)
allegedly violated or that warrant the proposed action;
contain facts, in concise and ordinary language,
(2)
comprising the violations in sufficient detail to permit the
preparation of a defense; no technical averments or any
allegations of matters not essential to be proved are required;
relate the stated facts to the statutes, rules, or Court
(3)
orders that the attorney allegedly violated or that warrant
the proposed action....” [Emphasis added] (App. 246).
Oregon’s rule that states the requirements of the contents of a bar
disciplinary complaint is Rule 4.1 and states:

23

“Rule 4.1 Formal Complaint....
The formal complaint shall be in substantially the form set forth in
BR 13.1.
(c) Substance of Formal Complaint. A formal complaint shall be signed
by Disciplinary Counsel, or his or her designee, and shall set forth
succinctly the acts or omissions of the respondent, including the
specific statutes or rules of professional conduct violated, so as to
enable the respondent to know the nature of the charge or charges
against the respondent. When more than one act or transaction is
relied upon, the allegations shall be separately stated and
numbered ” [Emphasis added] (App. 248).
Oregon has a sample formal complaint (referred to in BR 13.1) and is at (App.
250-251).
In Arizona, Rule 58, Ariz. R. Sup. Ct. addresses the contents of a bar
disciplinary complaint and merely states:
“(a) Complaint. Formal discipline proceedings shall be instituted by
bar counsel filing a complaint... with the disciplinary clerk. The
complaint shall be sufficiently clear and specific to inform a
respondent of the alleged misconduct....” [Emphasis added]
Arizona denies attorneys right to notice and Due Process in bar disciplinary
proceedings because there is no requirement that a bar complaint 1) cite the
statute, rules, or court orders that the attorney allegedly violated, 2) contain facts in
concise and ordinary language comprising the violations in sufficient detail to
permit the preparation of a defense, 3) relate the stated facts to the statutes, rules,
or court orders that the attorney allegedly violated, and 4) when more than one act
or transactions is relied upon, to separately state and number them.
Arizona further denies attorneys right to Notice and Due Process in bar
disciplinary proceedings because it allows its Hearing Panel and PDJ to find

24

violations of Ethical Rules based on statutes and rules not cited in a bar
disciplinary complaint.
In all candor with the Court, Petitioner has investigated each state’s
statutes/rules concerning the contents of their bar complaints and Petitioner is sad
to report that a majority of states have statutes/rules similar to Arizona’s Rule 58,
Ariz. R. Sup. Ct.
Rule 48(a), Ariz. R. Sup. Ct. states “[discipline ... proceedings are neither
civil nor criminal, but are sui generis ’; however, the U.S. Supreme Court in Ruffalo
referred to bar disciplinary proceedings as being of a “quasi-criminal nature” which
include notice of the charge before the proceedings commence.
Since bar disciplinary proceedings are of “quasi-criminal nature”, Petitioner
urges this Court to consider the notice this Court requires of a criminal indictment
and apply the same notice requirement to all states, including the Respondent in
Arizona, when it is filing its bar complaints (including Petitioner’s case at hand).
This Court in United States u. Cruikshank, 92 U.S. 542, 558, 23 L.Ed. 588
(1875) held that the charging of a criminal offense is regulated by the requirement
found in the Sixth Amendment that in all criminal prosecutions, the accused shall
enjoy the right... to be informed of the nature and cause of the charges against him
... with respect to charging an offense, this requirement, generally referred to as the
“notice” component of the Amendment, means that the indictment or information
must describe the offense with sufficient specificity so as to enable the accused to

25

prepare a defense and to permit and to avail himself of the protection against
double jeopardy.
The Respondent’s constitutionally defective complaint (App. 50-56) could
have and should have given notice to Petitioner by stating independently each
alleged ER violation, e.g., ER 1.1, and then described the alleged facts/conduct that
comprised the alleged ER 1.1 violation or it could have and should have alleged
specific facts/conduct and then alleged that the facts/conduct violated a specific ER
such as ER 1.1.
ER 1.4 (App. 61-63) has 3 sections and the first section has 5 subsections so
the complaint should have and could have identified in ER 1.4 the specific section
and/or subsection and then described the alleged facts/conduct that comprised the
alleged ER 1.4 violation.
Petitioner made his constitutional arguments in his Opening Brief (App. 102143) and Reply Brief (App. 144-173) filed in the Arizona Supreme Court.
The Arizona Supreme Court ruled in its March 5, 2021 Amended Decision
Order (App. 2-5):
“First, Respondent argues that he was denied due process in the discipline
proceedings because the complaint failed to give fair notice of the conduct and
charges.... On these facts, Respondent has not demonstrated that he was
denied fair notice of the charges.
The allegations in the Complaint are straightforward and, except for the ER
1.4 charge, it is clear which facts relate to which charged ethical rule.
Respondent is correct that ER 1.4 has several subparts, and the Complaint
did not specify which subpart Respondent was alleged to have violated. This
deficiency, however, did not deny Respondent due process or cause him
prejudice. ... While the Complaint could have been more specific, Respondent
has not demonstrated that he was denied fair notice of the charges or that he
suffe red'any' p rejudice’(App r 2r 3:)---------------- ------------------------------------------ —
26

The ultimate decision nor the rationale given by the Arizona Supreme Court
holding that the “allegations in the Complaint are straightforward” do not
withstand scrutiny.
Petitioner urges this Court to adopt Rule 5.41, of the Rules of Procedure of
the State Bar of California for the contents of all states’ bar complaints and so
order.
III.

THE ARIZONA SUPREME COURT DECIDED NEGATIVELY
WHAT IS REQUIRED OF THE CONTENTS OF A BAR
COMPLAINT TO SATISFY AN ATTORNEY’S RIGHT TO
NOTICE AND DUE PROCESS IN A WAY THAT CONFLICTS
WITH THE DECISIONS OF THE CALIFORNIA SUPREME
COURT AND OREGON SUPREME COURT.

Rule 58, Ariz. R. Sup. Ct. concerns the contents of a bar disciplinary
complaint in Arizona and states:
“(a) Complaint. Formal discipline proceedings shall be instituted by
bar counsel filing a complaint... with the disciplinary clerk. The
complaint shall be sufficiently clear and specific to inform a
respondent of the alleged misconduct....” [Emphasis added]
The plain language of Rule 58(a), Ariz. R. Sup. Ct. does not require a bar
complaint in Arizona to cite the statutes, rules, or court orders that the attorney
allegedly violated and does not require that the alleged facts be related to the
statutes, rules, or court orders an attorney allegedly violated.
In California, the seminal case on the topic of adequacy of notice is Woodard
v. State Bar, 16 Cal.2d 755 (1940). In that case, the California Supreme Court
emphasized that “ftjhe right to practice law is a valuable one which should
besuspendedorrevoked-onlyon-chargesalleged-and-proved-and-to-which
27

full notice and opportunity to defend have been accorded.” {Id. at 757.)
Woodard disapproved of a disciplinary culpability finding of a violation for which
the respondent was not charged in the initial notice to show cause. The court in
Woodard affirmed the need to, at the very least, file a formal amendment to the
notice citing the particular regulation alleged to have been violated and provide the
respondent with a reasonable opportunity to formally answer those amended
charges and procure evidence in his or her defense.
Since then, the California Supreme Court held fast to this requirement in
numerous published cases, (e.g., Gendron v. State Bar, 35 Cal.3d 409, 420-421
(1983) ““It is well established that "[t]he license [to practice law] may not be
arbitrarily taken away and the holder is entitled to procedural due process
in any disciplinary proceedings relating thereto[citations omitted] This is
also true where the State Bar seeks to discipline a member of the bar [citations
omitted].... Since the notice was not properly amended, the State Bar cannot
impose discipline on any of the charges which were not contained in the
original notice... Since leave to amend was never granted, only the charges
contained in the original notice may be considered.’ ). [Emphasis added].
In 1987, a pair of California Supreme Court cases criticized the California
State Bar for deficiencies in its Notices to Show Cause (renamed Notice of
Disciplinary Charges, effective January 1, 1995). In Maltaman v. State Bar, 43
Cal.3d 924 (1987), the California Supreme Court disapproved of “material gaps in

28

the analytical path from charges to proof to findings and conclusions to
recommendations” (Id. at 931) as well as “mismatched” charges. (Id. at 932.).
In Guzetta v. State Bar, 43 Cal.3d 962 (1987), the California Supreme Court
criticized the notice’s failure to relate the conduct charged to the statute or
rule alleged to have been violated.
In Baker v. State Bar, 49 Cal.3d 804 (1989), the California Supreme Court
once again highlighted these two basic requirements. (Id. at 816.). Subsequent to
Maltaman, Guzetta, and Baker, the California State Bar codified these
requirements into the Rules of Procedure.
The Supreme Court of the State of California approved the Rules of
Procedure of the State Bar of California which govern bar discipline of attorneys
and can be viewed at:
http://www.statebarcourt.ca.goV/Portals/2/documents/Rules/Rules-of-Procedure.pdf
Rule 5.41, of the Rules of Procedure of the State Bar of California is entitled
“Notice of Disciplinary Charges” and states in pertinent part:
“(A) Initial Pleading. A notice of disciplinary charges is the initial pleading
in a disciplinary proceeding, unless specified otherwise in the rules.
(B) Contents. The notice of disciplinary charges must:
cite the statutes, rules, or Court orders that the attorney
(1)
allegedly violated or that warrant the proposed action;
contain facts, in concise and ordinary language,
(2)
comprising the violations in sufficient detail to permit the
preparation of a defense: no technical averments or any
allegations of matters not essential to be proved are required;
relate the stated facts to the statutes, rules, or Court
(3)
orders that the attorney allegedly violated or that warrant
the proposed action....” [Emphasis added] (App. 246).

29

Petitioner submits that the State of California complies with an attorney’s
right to Due Process in bar disciplinary proceedings as guaranteed by the 5th and
14th Amendments to the U.S. Constitution by requiring its bar disciplinary
complaints to:
“(1)
(2)

(3)

cite the statutes, rules, or Court orders that the attorney
allegedly violated or that warrant the proposed action;
contain facts, in concise and ordinary language,
comprising the violations in sufficient detail to permit the
preparation of a defense ...;
relate the stated facts to the statutes, rules. or Court
orders that the attorney alleeedlv violated or that warrant
the proposed action...” (App. 246).

The bar complaint (App. 50-56) against Petitioner violated his right to Due
Process guaranteed by the 5th and 14th Amendments to the U.S. Constitution,
Ruffalo and Schware, and violated Rule 58(a), Ariz. R. Sup. Ct. because:
1) it failed to give notice by failing to cite Rule 49 and Rule 76 of the
Arizona Rules of Family Law Procedure, Arizona Rule of Civil
Appellate Procedure, Rule 13, and ER1.4(a)(3), ER1.4(b), and
ER1.4(a)(4) (the Hearing Panel used all those rules to justify its finding of
most of the ER violations); and
2) it failed to correlate the alleged misconduct or “relate the stated facts fin
the comvlaintl to the statutes, rules fe.g., ER 1.1. 1.3, 1.4(a)(3). 1.4(b).
1.4(a)(4), 3.1. 3.4(c). 8.4(d). Rule 49. Rule 76. ARCAP Rule 131... that
the attorney [Petitioner! allegedly violated”.
The Supreme Court of the State of Oregon approved the Rules of Procedure
which govern bar discipline of attorneys'and'can-be-viewed-at:
30

https://www.osbar.org/ docs/rulesregs/rulesofprocedure.ndf
Oregon’s rule that states the requirements of the contents of a bar
disciplinary complaint is Rule 4.1 and states:
“Rule 4.1 Formal Complaint....
The formal complaint shall be in substantially the form set forth in
BR 13.1.
(c) Substance of Formal Complaint. A formal complaint shall be signed
by Disciplinary Counsel, or his or her designee, and shall set forth
succinctly the acts or omissions of the respondent, including the
specific statutes or rules of professional conduct violated. so as to
enable the respondent to know the nature of the charge or charges
against the respondent. When more than one act or transaction is
relied upon, the allegations shall be separately stated and
numbered ” [Emphasis added] (App. 248).
The formal complaint referred to in BR 13.1 is at (App. 250-251).
Petitioner asserts that the State of Oregon complies with an attorney’s right
to Due Process in bar disciplinary proceedings as guaranteed by the 5th and 14th
Amendments to the U.S. Constitution by requiring its bar complaints to set forth
succinctly the acts or omissions of the attorney, including the specific statutes or
rules violated and to separately state them and number them.
If California and Oregon can comply with an attorney’s right to Due Process
guaranteed by the 5th and 14th Amendments to the U.S. Constitution by requiring
their bar disciplinary complaints to cite the specific statute, rules, or court orders
violated and then relate the facts to the alleged statute, rule, or court orders
violated then shouldn’t the great State of Arizona be required to do the same?
This Court should require the Supreme Court of Arizona to interpret and
define Arizona’s Rule 58(a), Ariz. R. Sup. Ct. “complaint shall be sufficiently

31

deaf- and spedfic to inform a respondent of the alleged misconduct” to mean
the same as California’s Rule 5.41 and/or Oregon’s Rule 4.1 and Rule 13.1.
Adequacy of notice is an essential element of due process. “Due process of law
requires that an accused be advised of the charges against him in order that he may
have a reasonable opportunity to prepare and present his defense and not be taken
by surprise by evidence offered at trial.” People v. Thomas, 43 Cal.3d 818, 823
(1987).
“No principle of procedural due process is more clearly established than the
notice of the specific charge, and a chance to be heard in a trial of the issues raised
by that charge, if desired, are among the constitutional rights of every accused in a
criminal proceeding in all courts, state or federal.” {Id. at p. 823, citing Cole v.
Arkansas, 333 U.S. 196, 201 (1948)). This principle applies with equal force in State
Bar proceedings. {Woodard at 737.) This Court should hold the same.
The bar complaint (App. 50-56) in Petitioner’s case violates Due Process and
is defective because it does not relate the alleged facts to the rules Petitioner
allegedly violated. The bar proceedings conducted against Petitioner as described
above violated his right to Due Process.
CONCLUSION
The petition for writ of certiorari should be granted.
Dated: July 31, 2021

Respectfully submitted,

IVIark Lee Williams
Pro Se Petitioner

32

